2311 Douglas Street
Omaha, Nebraska 68102-1214

LOCKLE

E-Mail Address:
contact@coCklelegalbriefs.com

Legal Briefs
Est. 3923

Web Site
www.cocklelegalbriefs.C-oin

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

No. 20-1724
DAVID TAMES• MURPHY,
Petitioner,
v.
CITIGROUP GLOBAL MARKETS, INC.,
CITICORP SECURITIES SERVICES, INC.,
AND OKAN PEKIN,
Respondents.
AFFIDAVIT OF SERVICE

1, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 7th day of October, 2021, send out
from Omaha, NE 1 package(s) containing 3 copies of the PETITION FOR REHEARING FROM ORDER DENYING
PETITION FOR WRIT OF CERTIORARI in the above entitled case. All parties required to be served have been served by
Priority Mail. Packages were plainly addressed to the following:
SEE.TTACHED

To be filed for:
DAVID JAMES MURPHY
Pro Se
57 Wallaroy Road Woollahra, NSW,
Australia 2025
+61 450 134 545
david.jatnes.murphy@hotmail.com

Subscribed and sworn to before me this 7th day of October, 2021.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State at Nebraska

RENEE J. GOSS
Viy Comm. Exp. September 5, 2023

Notary Public

69

Affiant

41521

Mr. Joseph Baumgarten
Proskauer Rose LLP
Eleven Times Square
New York, New York 10036
Telephone number: 212-969-3000
Direct line: 212-969-3002
Email address: JBaumgarten@proskauer.com

